Highlights
Table of Contents




                    Highway Contract
                    Routes —
                    Extra Trips — 
                    Greensboro
Findings




                    District
Recommendations




                    Audit Report
                    Report Number
                    NO-AR-14-012

                    September 23, 2014
Appendices




                                         Print
Highlights
Table of Contents




                    Highlights                                                Background                                                              We also determined procedures for authorizing and
                                                                                                                                                      documenting extra trips were not always followed. Over
                                                                              The U.S. Postal Service uses highway contract routes (HCR) to
                                                                                                                                                      49 percent of PS Forms 5397 (or 3,163 of 6,342) were not
                                                                              transport mail between its facilities. An extra trip is an infrequent
                                                                                                                                                      completed properly. Local officials did not always review or
                                                                              trip made in addition those that are outlined in the contract. The
                         We found the Greensboro                                                                                                      authorize these forms and, in some cases, recorded incorrect
                                                                              Postal Service must complete a Postal Service Form 5397 to
                                                                                                                                                      miles for the trips. Consequently, the Greensboro District
Findings




                        District could have avoided                           authorize an extra trip and a Postal Service Form 5429 to certify
                                                                                                                                                      incurred $536,643 in costs that were not properly supported
                                                                              the trip was performed and payment is due to the supplier. If
                                                                                                                                                      or authorized.
                        9.3 percent of its extra trips                        a payment is not made timely, the Postal Service is charged
                                                                              interest on the amount owed.
                         in FY 2013, Q4, which cost                                                                                                   We also found that the Postal Service made 34 interest
                                                                                                                                                      payments because Postal Service Forms 5397 were not
                       the district $53,927. We also                          This is the first in a series of HCR extra trip reports. Our
                                                                                                                                                      submitted on time. Finally, we identified 120 instances where
                                                                              objective was to assess HCR extra trips in the Greensboro
                                                                                                                                                      trip dates on Postal Service Forms 5429 did not match those on
                          determined that, in some                            District. The Greensboro District was consistently ranked
Recommendations




                                                                                                                                                      Forms 5397 because employees were not adequately trained
                                                                              one of the 10 most at risk districts for extra trips in our
                         cases, employees did not                                                                                                     and monitored. As a result, HCR contractors were not paid
                                                                              Surface Transportation Risk Model. In fiscal year (FY) 2013,
                                                                                                                                                      interest on late payments.
                       follow proper procedures for                           Quarter (Q) 4, the Greensboro District paid about $1.1 million
                                                                              for 7,386 extra trips.
                      documenting and authorizing                                                                                                     What The OIG Recommended
                      extra trips. Consequently, the                          What The OIG Found                                                      We recommended management reduce extra trips by
                                                                                                                                                      implementing controls and enforcing procedures to avoid
                                                                              The Greensboro District could improve controls over the use
                       Greensboro District incurred                                                                                                   processing delays and missent mail. We also recommended
                                                                              and processing of extra trips. We found the Greensboro District
                                                                                                                                                      management provide training on, and monitor compliance with,
                        $536,643 in costs that were                           could have avoided 689 of 7,386 (9.3 percent) extra trips used
                                                                                                                                                      proper completion of extra trip authorization forms, ensure HCR
                                                                              to transport mail due to unnecessary mail processing delays
                                                                                                                                                      extra trip forms are submitted timely for payment, and calculate
Appendices




                           not properly supported                             or missent mail. Mail processing delays were the result of
                                                                                                                                                      and pay contractors any interest due.
                                                                              non-adherence to dispatch leave times and missent mail was
                                   or authorized.                             the result of operational errors. These events caused the district
                                                                              to spend an additional $53,927 on extra trips in FY 2013, Q4.

                    Highway Contract Routes—Extra Trips—Greensboro District
                    Report Number NO-AR-14-012
                                                                                                                                                                             Print                                   1
Highlights
                    Transmittal Letter


                                                                              September 23, 2014		
Table of Contents




                                                                              MEMORANDUM FOR:	           KRISTIN SEAVER
                                                                              				                       VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS
                                                                                                             E-Signed by Robert Batta
                                                                                                           VERIFY authenticity with e-Sign



                                                                              				
                                                                              FROM: 			 Robert J. Batta
                                                                              				Deputy Assistant Inspector General for
                                                                              				        Mission Operations

                                                                              SUBJECT: 			 Audit Report – Highway Contract Routes –
Findings




                                                                              				Extra Trips – Greensboro District
                                                                              				         (Report Number NO-AR-14-012)

                                                                              This report presents the results of our audit of Highway Contract Routes – Extra Trips –
                                                                              Greensboro District (Project Number 14XG008NO000).

                                                                              We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                                              questions or need additional information, please contact James L. Ballard, director,
Recommendations




                                                                              Network Processing and Transportation, or me at 703-248-2100.

                                                                              Attachment

                                                                              cc:	   Corporate Audit and Response Management
Appendices




                    Highway Contract Routes—Extra Trips—Greensboro District
                    Report Number NO-AR-14-012
                                                                                                                                                    Print                2
Highlights
                    Table of Contents

                                                                              Cover
                                                                              Highlights.......................................................................................................1
                                                                               Background.................................................................................................1
                                                                               What The OIG Found..................................................................................1
Table of Contents




                                                                               What The OIG Recommended...................................................................1
                                                                              Transmittal Letter...........................................................................................2
                                                                              Findings.........................................................................................................4
                                                                               Introduction.................................................................................................4
                                                                               Conclusion..................................................................................................4
                                                                               Avoidable Extra Trips .................................................................................5
                                                                               Improperly Documented Extra Trips...........................................................6
                                                                               Late Payments and Interest Payments ......................................................7
                                                                              Recommendations........................................................................................8
                                                                               Management’s Comments..........................................................................8
Findings




                                                                               Evaluation of Management’s Comments....................................................9
                                                                              Appendices..................................................................................................10
                                                                               Appendix A: Additional Information........................................................... 11
                                                                                 Background ........................................................................................... 11
                                                                                 Objective, Scope, and Methodology.......................................................12
Recommendations




                                                                                 Prior Audit Coverage..............................................................................13
                                                                               Appendix B: Management’s Comments....................................................14
Appendices




                    Highway Contract Routes—Extra Trips—Greensboro District
                    Report Number NO-AR-14-012
                                                                                                                                                                        Print                      3
Highlights
                    Findings                                                  Introduction
                                                                              This report presents the results of our self-initiated audit of Highway Contract Routes (HCR) – Extra Trips – Greensboro District
                                                                              (Project Number 14XG008NO000). This is the first in a series of reports on HCR extra trips. Our objective was to assess extra
                                                                              trips for HCRs in the Greensboro District. See Appendix A for additional information about this audit.
                     The Greensboro District needs
                                                                              The U.S. Postal Service uses HCRs1 to transport mail between post offices and other designated points where mail is received
                       to improve controls over the                           or dispatched, such as mailers’ facilities. An extra trip is an infrequent trip made in addition to those outlined in the contract. HCR
                        use and processing of HCR                             contractors receive extra pay for these trips. Management should schedule extra trips2 only if necessary to prevent serious delay
Table of Contents




                                                                              of preferential mail3 or if the trips are justified due to excessive mail volume.
                          extra trips. 9.3 percent of
                                                                              The Postal Service uses Postal Service (PS) Form 5429, Certification of Exceptional Contract Service Performed, to certify that
                     extra trips in FY 2013, Q4 were                          the HCR contractor performed the requested extra service and should receive additional payment. The Postal Service uses
                      used to transport mail due to                           PS Form 5397, Contract Route Extra Trip Authorization,4 to support PS Form 5429 and validate that the trip occurred. The
                                                                              contracting officer appoints an administrative official (AO) to record contract performance on a day-to-day basis.5 Managers
                      unnecessary mail processing                             must also certify and sign PS Forms 5429 to ensure they are properly completed and submitted promptly for payment.

                     delays or missent mail caused                            The U.S. Postal Service Office of Inspector General (OIG) has been monitoring extra trips as part of its quarterly Surface
                          by the non-adherence to                             Transportation Risk Model6 for 4 years and has found an increase in extra trips. The Postal Service’s regular HCR transportation
                                                                              expense increased a modest 1.9 percent over the last 9 quarters (from $579.6 million in fiscal year (FY) 2012, Quarter (Q) 2 to
                          dispatch leave times and                            $590.5 million in FY 2014, Q2). Conversely, the Postal Service’s extra trip expense increased 41.3 percent over the same period
Findings




                                                                              (from $19.3 million to $27.3 million). As a result, the Postal Service’s extra trip expense as a percentage of HCR regular expense
                               operational errors.                            increased from a low of 2.2 percent in FY 2012, Q4 to a high of 4.6 percent in FY 2014, Q2. We selected the Greensboro District
                                                                              for this audit because it has been one of the 10 most at risk districts for 8 of the last 9 quarters and was the most at risk district in
                                                                              FY 2013, Q4.

                                                                              Conclusion
                                                                              The Greensboro District needs to improve controls over the use and processing of HCR extra trips. We found the Greensboro
Recommendations




                                                                              District could have avoided 689 of 7,386 extra trips (9.3 percent) in FY 2013, Q4, and used extra trips to transport mail due to
                                                                              unnecessary mail processing delays or missent mail. Mail processing delays were the result of non-adherence to dispatch leave
                                                                              times and missent mail was the result of operational errors. As a result, the Greensboro District spent an additional $53,927 on
                                                                              extra trips.




                                                                              1	   HCRs also include box delivery, collection service, and other mail services. We did not include these in our review.
                                                                              2	   Postal Service Headquarters’ goal is that extra trips will cost no more than an amount equal to 2 percent of regular HCR expenses. This amount applies to total trips for all
Appendices




                                                                                   districts. We used this 2 percent goal to identify which Greensboro District HCRs should be reviewed.
                                                                              3	   Preferential mail includes Express Mail, international airmail, First-Class Mail, Priority Mail, Periodicals, special delivery, and special handling.
                                                                              4	   According to the Postal Operations Manual (POM) Section 478.32A, Highway Contract Route Trips, “Each highway contract route extra trip must have a PS Form 5397,
                                                                                   Contract Route Extra Trip Authorization, completed as certification for payment.”
                                                                              5	   The AO summarizes PS Form 5397 information for PS Form 5429 at the end of each accounting period. The AO distributes copies of PS Form 5429, as required,
                                                                                   including sending completed PS Forms 5429 to the Accounting Service Center (ASC) for payment to the HCR contractor.
                                                                              6	   This model was developed to help identify key indicators that could potentially forewarn postal officials of problems within a district’s surface transportation operations.
                    Highway Contract Routes—Extra Trips—Greensboro District
                    Report Number NO-AR-14-012
                                                                                                                                                                                                        Print                                                 4
Highlights                                                                    We also determined that, in some cases, employees did not follow proper procedures for documenting and authorizing extra trips.
                                                                              Specifically, local officials did not always review or authorize required Postal Service forms. In some cases, they recorded incorrect
                                                                              miles for the trips. We examined 6,342 PS Forms 5397 and found that 49.9 percent (or 3,163) of them had documentation
                                                                              issues or were not completed properly. Consequently, the Greensboro District incurred $536,643 in costs that were not properly
                                                                              supported or authorized.

                                                                              Finally, we found 34 interest payments the Postal Service made because extra trip documents were not submitted on time.
                                                                              Payments were late, on average, about 2 months and the Postal Service incurred about $873 in interest payments because of the
                                                                              untimely submissions. We identified an additional 120 instances of mismatched trip dates on PS Forms 5429 and 5397. These
Table of Contents




                                                                              inaccuracies occurred because local officials were not preparing PS Forms 5429 properly. As a result, the Postal Service was
                                                                              not paying HCR contractors interest due. This occurred because employees were not adequately trained and officials were not
                                                                              monitoring their activity.

                                                                              Avoidable Extra Trips
                                                                              We examined 6,342 PS Forms 5397 from the Greensboro District for FY 2013, Q4, which consisted of five processing facilities.7
                                                                              Based on comments on the forms and interviews with management, we found the Postal Service used 689 of 7,386 extra trips
                                                                              (9.3 percent) as a result of mail processing-related delays or missent mail arriving at the wrong facility. See Figure 1 for the
                                                                              percentage of extra trips caused by late or missent mail for each facility in the Greensboro District.8

                                                                              Figure 1. Percentage of Extra Trips Caused by Late or Missent Mail by Facility
Findings




                                                                                                                                                                                        Hover over the bars for more information.


                                                                                                                Percent of Extra Trips Because of Late or Missent Mail
                                                                                                                                                                         32.0%
                                                                                                                                                                         30.0%                 28%
                                                                                                                                                                         28.0%
                                                                                                                                                                         26.0%
                                                                                                                                                                         24.0%                              22.5%
                                                                                                                                                                         22.0%
                                                                                                                                                                         20.0%    Zero
Recommendations




                                                                                                                                                                         18.0%
                                                                                                                                                                                 Percent
                                                                                                                                                                         16.0%
                                                                                                                                                                         14.0%
                                                                                                                                                                         12.0%
                                                                                                                                                                         10.0%
                                                                                                                                                                                                                                          8.2%
                                                                                                                                                                         8 .0%
                                                                                                                                                                         6 .0%
                                                                                                                                                                         4 .0%
                                                                                                                                                                         2 .0%                                              .8%
                                                                                                                                                                         0 .0%
                                                                                                                                                                                 Greensboro   Rocky Mount   Raleigh P&DF   Greensboro   Hickory P&DF
                                                                                                                                                                                    NDC          P&DF                         P&DC
                                                                                                                                                                                                               Facility
                                                                                   	                         Source: OIG analysis as of July 25, 2014.
Appendices




                                                                              7	       The five facilities in the Greensboro District include the Greensboro Processing and Distribution Center (P&DC), the Greensboro Network Distribution Center, the Raleigh
                                                                                       P&DC, and the Rocky Mount and Hickory processing and distribution facilities (P&DFs). In 2012, an Area Mail Processing consolidation resulted in the Hickory P&DF
                                                                                       closing and moving all of its mail processing operations to the Greensboro P&DC.
                                                                              8	       The percentages are based on: 0 of 476 Greensboro NDC extra trips were caused by late or missent mail, 215 of 772 Rocky Mount P&DF extra trips were caused by late
                                                                                       or missent mail, 344 of 1,527 Raleigh P&DC extra trips were caused by late or missent mail, 35 of 3,449 Greensboro P&DC extra trips were caused by late or missent
                                                                                       mail, and 95 of 1,162 Hickory P&DC extra trips were caused by late or missent mail.
                    Highway Contract Routes—Extra Trips—Greensboro District
                    Report Number NO-AR-14-012
                                                                                                                                                                                                                                         Print                5
Highlights                                                                    The Postal Service used these extra trips because officials did not adhere to dispatch discipline policies that ensure processed
                                                                              volumes are moved as planned to meet intended transportation.9 As a result, the Postal Service incurred additional, unnecessary
                                                                              costs totaling about $53,927.10

                                                                              Improperly Documented Extra Trips
                                                                              Local officials did not always review or authorize the required PS forms for the extra trips. Specifically, we found:

                                                                              ■■ 21.9 percent of PS Forms 5397 were missing an authorizing supervisor signature or were signed by a non-supervisor. It is
Table of Contents




                                                                                 common practice for craft employees (such as expeditors, clerks, and mail handlers)11 to sign PS Forms 5397 authorizing the
                                                                                 extra trips;

                                                                              ■■ 21.7 percent of PS Forms 5397 we reviewed were missing the extra trip mileage, which the Postal Service uses to calculate
                                                                                 payment to the HCR contractors; and

                                                                              ■■ Officials who were authorizing extra trips on PS Forms 5397 were also certifying PS Forms 5429, which are sent to the ASC
                                                                                 for payment, bypassing the segregation of duties control.

                                                                              In addition, some extra trip authorization forms were missing other information including:

                                                                              ■■ The date the trip occurred;
Findings




                                                                              ■■ The time the trip departed; and

                                                                              ■■ The departure mail volumes.

                                                                              We examined a total of 6,342 PS Forms 5397, which are used to document extra trips, and found that 49.9 percent (or 3,163)
                                                                              contained errors. Figure 2 shows the percentage of each type of PS Form 5397 discrepancy the OIG noted.12
Recommendations




                                                                              These documentation issues occurred because Postal Service officials responsible for monitoring and authorizing the completion
                                                                              of these forms did not adequately train and oversee employees or reiterate the proper procedures for completing, approving, and
                                                                              submitting these forms.13 Consequently, the Greensboro District incurred $536,643 in costs that were not properly supported,
                                                                              justified, or authorized.




                                                                              9	    According to Postal Service Handbook M-22, Dispatch and Routing Policies, “Dispatch discipline ensures that processed volumes are actually moved as planned to meet
Appendices




                                                                                    intended transportation that fits the transportation window and achieves the best possible service at the most cost-effective rate.”
                                                                              10	   To calculate the monetary impact, we multiplied each facility’s extra trips cost by the percentage of trips caused by late and missent mail. We added the facility totals
                                                                                    together to calculate the Greensboro District’s total. In addition, to avoid duplicate claims of money, a PS Form 5397 was not counted in more than one finding category.
                                                                              11	   These are non-supervisory employees who record the arrival and departure of mail trucks.
                                                                              12	   Based on a review of 6,342 PS Forms 5397, 11 were missing dates, 694 were missing time departed, 580 were missing departing volumes, 1,379 were missing mileage,
                                                                                    87 were missing an authorizing signature, 1,299 were signed by unauthorized employees, and 302 were signed by the same person who signed the PS Form 5429.
                                                                              13	   PS Form 5397 is used to authorize an extra trip for a contracted route. The office authorizing the extra trip must issue the form and complete the appropriate sections.
                    Highway Contract Routes—Extra Trips—Greensboro District
                    Report Number NO-AR-14-012
                                                                                                                                                                                                       Print                                                6
Highlights
Table of Contents                                                             Figure 2. Issues With the Greensboro District’s Completion of PS Forms 5397




                                                                                  	                          Source: OIG analysis as of July 25, 2014


                                                                              Late Payments and Interest Payments
                                                                              We determined the Greensboro District did not timely process 34 PS Forms 5429 over a 3-month period from July through
Findings




                                                                              September 2013, resulting in $873.32 in interest payments to HCR contractors. Payments were, on average, about 2 months late.
                                                                              We also identified an additional 120 instances of mismatched trip dates on PS Forms 5429 and 5397. This occurred because local
                                                                              officials were not preparing PS Forms 5429 properly.

                                                                              The St. Louis ASC pays HCR contractors based on what is recorded on PS Form 5429 without reviewing any supporting
                                                                              documentation.14 As a result of these mismatched forms, HCR contractors were not paid interest due for late payments.15
                                                                              Postal Service regulations state that proper payment documentation for extra trips must be submitted within the month after the
Recommendations




                                                                              service takes place.16 The Postal Service is obligated to make prompt payments to its contractors by virtue of 31 U.S.C. 3901,17
                                                                              the Prompt Payment Act of 1974, as amended in 1988. According to Postal Service policy, “the Postal Service will pay interest
                                                                              on late payments and unearned prompt payment discounts in accordance with the Prompt Payment Act.” These late payments
                                                                              occurred because local Postal Service employees responsible for this function were not adequately trained and plant managers
                                                                              were not monitoring their activity.
Appendices




                                                                              14	 PS Form 5429 summarizes the information on PS Form 5397, so when the dates do not match, the extra trip date on the PS Form 5397 becomes the date of the
                                                                                  PS Form 5429 and the HCR contractor does not get paid the interest due.
                                                                              15	 We were not able to determine the amount of interest that may be owed because many of the PS Forms 5397 were missing the extra trip mileage that is used to
                                                                                  calculate interest.
                                                                              16	 POM Issue 9, Section 478.32F, dated July 9, 2002, states “The AO summarizes PS Forms 5397 onto PS Form 5429 at the end of each accounting period.”
                                                                              17	 Postal Service, Supply Management Supplying Principles and Practices, dated August 2009.
                    Highway Contract Routes—Extra Trips—Greensboro District
                    Report Number NO-AR-14-012
                                                                                                                                                                                                 Print                                          7
Highlights
                    Recommendations                                           Recommendations
                                                                              We recommend the vice president, Capital Metro Area Operations:

                                                                              1.	 Implement controls and enforce procedures to avoid processing delays and missent mail in order to reduce highway contract
                      We recommend management                                     route extra trips.

                             reduce extra trips by                            2.	 Train employees on the proper completion of extra trip authorization forms and monitor compliance.
                        implementing controls and
Table of Contents




                                                                              3.	 Ensure employees submit extra trip authorization forms on time.
                     enforcing procedures to avoid
                                                                              4.	 Determine which contractors have interest payments due because of untimely submission of documentation and pay
                    processing delays and missent                                 them accordingly.
                         mail. We also recommend
                                                                              Management’s Comments
                      management provide training
                                                                              Management agreed in part with the findings and stated that some of the processes need to be evaluated and Standard
                       on, and monitor compliance                             Operations Procedures need to be reinforced. Further, management agreed with all recommendations but did not agree with the
                                                                              monetary impacts presented in the report.
                        with, proper completion of
                                                                              In response to recommendation 1, the Capital Metro Area stated they will work with local plant officials to monitor extra trips
                      extra trip authorization forms,
Findings




                                                                              leaving as a result of delays in mail processing. Local officials will monitor daily mail condition reports and make operational
                       ensure HCR extra trip forms                            changes as necessary to avoid extra trips. Management stated they implemented the recommendation on September 12, 2014.

                           are submitted timely for                           In response to recommendation 2, management will provide training to all individuals for completing PS Forms 5397, ensuring
                                                                              that they are fully and correctly completed. Management will monitor compliance monthly. Target implementation date of the
                    payment, and calculate and pay
                                                                              recommendation is September 30, 2014.
                      contractors any interest due.
                                                                              In response to recommendation 3, management will strengthen internal processes to ensure PS Forms 5397 are received
Recommendations




                                                                              and processed on time. Management stated that not all instances of late submissions of documentation is the fault of the
                                                                              Postal Service and some instance are a result of contractors not submitting their paperwork on time. Target implementation
                                                                              date of the recommendation is September 30, 2014.

                                                                              In response to recommendation 4, management at the local level already initiated a process that will review trips identified in this
                                                                              report as having the potential of receiving interest due to late submission. If they are found to be entitled to interest payments,
                                                                              documentation will be submitted to pay the contractors for this service. Target implementation date of the recommendation is
                                                                              September 30, 2014.

                                                                              See Appendix B for management’s comments, in their entirety.
Appendices




                    Highway Contract Routes—Extra Trips—Greensboro District
                    Report Number NO-AR-14-012
                                                                                                                                                                          Print                                      8
Highlights                                                                    Evaluation of Management’s Comments
                                                                              The OIG considers management’s comments responsive to the findings and recommendations and corrective actions should
                                                                              resolve the issues identified in the report. Regarding monetary impact, management did not provide justification or documentation
                                                                              for their disagreement. We still consider our calculations valid and will work with management in resolving any disagreement with
                                                                              the monetary impact in closing out the significant recommendations.

                                                                              The OIG considers recommendations 1, 2, 3 and 4 significant, and therefore requires OIG concurrence before closure.
                                                                              Consequently, the OIG requests written confirmation when corrective actions are completed. These recommendations should not
Table of Contents




                                                                              be closed in the Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendation(s)
                                                                              can be closed.
Findings
Recommendations
Appendices




                    Highway Contract Routes—Extra Trips—Greensboro District
                    Report Number NO-AR-14-012
                                                                                                                                                                        Print                                     9
Highlights
                    Appendices
                                                                              Appendix A: Additional Information........................................................... 11
                                                                               Background ........................................................................................... 11
                                                                               Objective, Scope, and Methodology.......................................................12
                         Click on the appendix title
                                                                               Prior Audit Coverage..............................................................................13
Table of Contents




                          to the right to navigate to                         Appendix B: Management’s Comments....................................................14
                              the section content.
Findings
Recommendations
Appendices




                    Highway Contract Routes—Extra Trips—Greensboro District
                    Report Number NO-AR-14-012
                                                                                                                                                                 Print                     10
Highlights          Appendix A:                                               Background
                    Additional Information                                    The Postal Service uses HCRs to transport mail between post offices and other designated points where mail is received or
                                                                              dispatched, such as mailers’ facilities. An extra trip is an infrequent trip made in addition to those normally provided under the
                                                                              terms of a contract. HCR contractors receive extra pay for these trips. Management should schedule extra trips only if necessary
                                                                              to prevent serious delays of preferential mail or if the trips are justified due to high mail volume. Officials must record extra trips
                                                                              dispatched or received in Surface Visibility or TIMES-Web. Each extra trip must have a PS Form 5397 completed as certification
                                                                              for payment and signed by a supervisor to prove the extra trip was authorized. In addition, offices are required to maintain
                                                                              PS Forms 5397 for 1 year.
Table of Contents




                                                                              PS Form 5429 is used to certify that the HCR contractor performed the requested extra trip and should receive additional payment.
                                                                              The Postal Service uses PS Forms 5397 to support PS Forms 5429 and validate that the trips occurred. The contracting officer
                                                                              appoints an AO to record contract performance on a day-to-day basis.18 The AO is generally the postmaster or manager of the
                                                                              HCR’s originating facility. The AO must certify and sign the PS Form 5429 and submit it to the ASC for payment. Further, offices
                                                                              are required to maintain PS Forms 5429 for 7 years.

                                                                              The OIG has been monitoring HCR extra trips as part of its quarterly Surface Transportation Risk Model. The Postal Service’s
                                                                              regular HCR transportation expense increased a modest 1.9 percent over the last 9 quarters (from $579.6 million in FY 2012, Q2
                                                                              to $590.5 million in FY 2014, Q2). Conversely, the Postal Service’s extra trip expense increased 41.3 percent over the same period
                                                                              (from $19.3 to $27.3 million). As a result, the Postal Service’s extra trip expense as a percentage of regular expenses increased
                                                                              from a low of 2.2 percent in FY 2012, Q4 to a high of 4.6 percent in FY 2014, Q2 (see Figure 3).
Findings




                                                                              Figure 3. Surface Transportation Risk Model Results – Extra Trip Expense as a Percentage of
                                                                              Regular Pay FY 2012, Q2 – FY 2014, Q2
Recommendations




                                                                                	                          Source: OIG Surface Transportation Risk Model results as of May 15, 2014.
Appendices




                                                                              18	 POM Issue 9, dated July 9, 2002, states that “the AO distributes copies of PS Form 5429 as required on the form, including sending completed PS Form 5429 to the ASC
                                                                                  for payment to the HCR contractor.”
                    Highway Contract Routes—Extra Trips—Greensboro District
                    Report Number NO-AR-14-012
                                                                                                                                                                                                  Print                                            11
Highlights                                                                    According to our Surface Transportation Risk Model, since FY 2012, Q2, the Greensboro District has been one of the 10 districts
                                                                              most at risk for extra trips as a percentage of regular pay for 8 of the past 9 quarters. We selected the Greensboro District because
                                                                              of its performance in FY 2013, Q4, where it ranked as the most at risk district in the nation (see Figure 4).

                                                                              Figure 4. Surface Transportation Risk Model Results—Greensboro District Ranking of Extra Trip
                                                                              Expense as a Percentage of Regular Pay
Table of Contents




                                                                                                            Source: OIG Surface Transportation Risk Model results as of May 15, 2014.
Findings




                                                                              Objective, Scope, and Methodology
                                                                              Our objective was to assess the Greensboro District’s use of extra trips for HCRs. To accomplish our objective, we reviewed
                                                                              6,342 PS Forms 5397 submitted for payment during FY 2013, Q4 for HCRs with an extra trip expense that was equal to more than
                                                                              2 percent of regular pay.19 Postal Service Headquarters’ goal is that extra trips will cost no more than an amount equal to 2 percent
                                                                              of regular HCR expenses. This amount applies to total trips for all districts. In addition, we interviewed Postal Service officials and
                                                                              employees in the Greensboro District and the ASC. We reviewed relevant policies and procedures. We reconciled PS Forms 5397
Recommendations




                                                                              to the appropriate PS Forms 5429 and inspected PS Forms 5397 for proper completion and authorization.

                                                                              We conducted this performance audit from January through September 2014, in accordance with generally accepted government
                                                                              auditing standards and included such tests of internal controls as we considered necessary under the circumstances. Those
                                                                              standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
                                                                              our findings and conclusions based on our audit objective. We believe that the evidence obtained provides a reasonable basis for
                                                                              our findings and conclusions based on our audit objective. We discussed our observations and conclusions with management on
                                                                              September 3, 2014, and included their comments where appropriate.

                                                                              We assessed the reliability of the extra service data used for this report and contained in our Surface Transportation Risk Model
                                                                              by interviewing Postal Service officials knowledgeable about the data. We determined that the data were sufficiently reliable for the
                                                                              purposes of this report.
Appendices




                                                                              19	 We limited our scope to exclude any HCRs with an administrative official in the Greensboro Customer Service District because documentation for these HCRs
                                                                                  was decentralized.
                    Highway Contract Routes—Extra Trips—Greensboro District
                    Report Number NO-AR-14-012
                                                                                                                                                                                                 Print                                        12
Highlights                                                                    Prior Audit Coverage
                                                                              On July 21, 2014, the OIG issued management alert NO-MA-14-003, Late Payments for Highway Contract Routes – Indianapolis,
                                                                              IN, Processing and Distribution Center. The alert determined that the Indianapolis, IN, P&DC did not promptly process about
                                                                              $74,000 in exceptional service payments from June 2013 through January 2014. The OIG found that payments to HCR contractors
                                                                              were about 3.7 months late, on average. The OIG recommended the vice president, Great Lakes Area Operations, ensure
                                                                              management properly trains employees to prepare and promptly submit exceptional services documentation, develop a process
                                                                              to continually monitor locally generated exceptional services expenses, and ensure local compliance with exceptional services
                                                                              payment processes. Management agreed with the findings and recommendations.
Table of Contents
Findings
Recommendations
Appendices




                    Highway Contract Routes—Extra Trips—Greensboro District
                    Report Number NO-AR-14-012
                                                                                                                                                                    Print                               13
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Highway Contract Routes—Extra Trips—Greensboro District
                    Report Number NO-AR-14-012
                                                                              Print   14
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Highway Contract Routes—Extra Trips—Greensboro District
                    Report Number NO-AR-14-012
                                                                              Print   15
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Highway Contract Routes—Extra Trips—Greensboro District
                    Report Number NO-AR-14-012
                                                                              Print   16
Highlights
Table of Contents
Findings




                                                                                 Contact us via our Hotline and FOIA forms, follow us on social
                                                                              networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                                     or abuse. Stay informed.
Recommendations




                                                                                                    1735 North Lynn Street
                                                                                                   Arlington, VA 22209-2020
                                                                                                         (703) 248-2100
Appendices




                    Highway Contract Routes—Extra Trips—Greensboro District
                    Report Number NO-AR-14-012
                                                                                                                                                       Print   17
